      United States ' partrne t of _tate
    d      roadc;oI$ting Boanl of Governors
        ,O ffice ,o f Inspector 'G ene.raJ




               IOffice of Aud its 


  Review of the Inforation Sec:urity
  Program at the Broadcastin g Board
            of Governo s




Report        umber               UD{IT~Oa~37 ,                   Oc:tobe'r 2008




   :;.u """"" ll ' =c.d           oly 'Or ~ oCicuJ .q.e Jl , ~ ~~"'" o( _~ 3t ':be
   .B             _ 3a11'1! oL .............. or ...,. IIJ=IOY .. JI11II1BI,"m ='''''IDI I CD1111
   ~! -             ~.!ij,;.. f~ Gon -. '4> .mmdar-, dimtlltrl>I!C !1liiy M
   ""'GO. '" .. ~... OJ irI port. ...mae ICC Dq:a:m:n, ,fS~ QI'..r... ElrDlld_
   Bomr.I 0(00,=", by:h= .. by otll"" ~e:: .. tit ~on;, >iItMUl FrI..r
   .U1h r=ro. by ili~ tMl"""m Gcru::al. PuIillo ~iliiy oi t.Il~ .jo=m= 'NIlI boo
   Jc;..-m ..: : the                  - • W14er!!IJc 1.'.,). C-! 1,;.:5.c. B::' ImpMlpt!!'
                       """'It
   ll!dO.I.I'.. »i llruI              ,""",11Jl <nmJIIII. ....."11. or ~ iI=ffi=.




                                LTL                    GlED 

                                                              C1Iited calC'! Dcp.tnmel!lt of l:I.re
                                                              utd [be 8tmidcasting Baud a r Go"..rnon




                                              PREFACE

        Th:is repon • preflllM! Dl' the Offiell of lM~or G~tlUiII lorG ) p ' 1'1lu::mJ 10 the
lnspCCI!.}t Geoer:l.ll:..a of 1978. :IS amend<!d, Set:ucl1_09 o( lIle forci8!1 )0'.'1C!l . .I.ct at'· 9 0,
~ Amls Caatrol <!TId Dt=!Mllt \m.endmer.~ Act or 1 9~'i, ;mri 1J.: ikpanmnlI cf Smte !DId
Rc!otU:<l Ag~o::i=! Appooprimi(ll!5 Act, FY l Q96, II i! (1£ af ' St:r.cS oJl aWit. IIlI)XCUon.
in.....niptl'<e. ilia $t;liII ~ jm;par:>:! ~ DIG p-etiC)lfi<:;l[l: ~         . 01113 a~ I!rnIPIi
""~pcnsibi1try ",ili1 rt!Spo:1:t to 1h.: ~(m. o)f Stllt: lJ'ld lite BmI!CCltm"IJ Boartf "i GG,'m:nod
to ldmmly and preV'lfU tr.wd. 'K.1.."'v... all=, mel misrca.!l~=o:nt.

     Th.s   ~~         the LI"..!u.il of m ~ent 'H the: ~gths "IIOi l"eQk.'!.dSSe:s of It,e OIDCe. ~1..
11 fun.:t1on IlIiIkr :.:'01"". I! U ~ an intr;r....,,,,cs ...~Ih CIn!, :teC!.Ill<! llffi.;:tal:! of :-eiooV3!l':
1.!!=ie:I :Ill!:! tnsUlllltUl:!.. di=t c~r;'iIliOil. ad a ",~;......' ,,{ !tpp'lio:abl" ocwno=:c~

      The =mm~1t! ~n nave ~.m .ievelop:d Oil :llol bost5 or tb~ CSI kiJo""~
"v;lltmOle to the OIG. md hav.: nail dlscus."u Ul         =
                                                        'N1Ib ~ =oQSllnc fur
imp~lIJdtlJlilln. It .s '111 bo(:C t1    :Jk:sc <=lm~Il"ns will :.:.!W.t 1Il 1Jll1J'C :ffil<:tl v;:,
<:.mCli:nI., lll:iC'oc e<:QIlmIll~ op:::.mOJl~




                                                lJ·h.t~~~
                                                \f;u-'   w. Dud... 

                                                ~i,;=Iln:;Jlc~ror      GcDr:nl !br ... ~1l!I   

                                            TABLE OF CONTENTS



EXECUTIVE SUMMARY ................................................................................................ 2 


BACKGROUND ................................................................................................................ 3 


SCOPE AND METHODOLOGY ...................................................................................... 4 


RESULTS ........................................................................................................................... 5 

  Inventory Management ................................................................................................... 5 

  Plan of Action and Milestones Process ........................................................................... 6 

  Certification and Accreditation ....................................................................................... 8 

  Privacy ............................................................................................................................ 9

  Configuration Management .......................................................................................... 10 

  Incident Reporting ........................................................................................................ 11 

  Security Awareness Training, Peer-to-Peer File Sharing ............................................. 13 


RECOMMENDATIONS .................................................................................................. 16 


APPENDIX A – MANAGEMENT RESPONSE ............................................................. 17 

                                        UNCLASSIFIED 



EXECUTIVE SUMMARY

        In response to the Federal Information Security Management Act of 2002
(FISMA), 1 the Office of Inspector General (OIG) performed an independent evaluation
of the information security program at the Broadcasting Board of Governors (BBG).
OIG reviewed BBG’s progress in addressing information management and information
security program requirements per FISMA and other statutory requirements, including
Office of Management and Budget (OMB) guidance. The OIG team assessed
performance in various areas, including inventory, plan of action and milestones
(POA&M), certification and accreditation (C&A), security planning, contingency
planning, risk management, incident response, security awareness and training,
configuration management, and privacy requirements.

        OIG could not perform an assessment of the adequacy of BBG’s oversight and
evaluation for 13 of its 14 identified systems because BBG had not conducted all aspects
of a formal security program during FY 2008. Therefore, BBG could not provide the
supporting documentation that would have been available for this FISMA review. As a
result, BBG’s overall assessment is poor, with improvements needed in several areas.
OIG has, however, noted instances where improvements have been made since the FY
2007 review.

        Since last year, BBG has completed one POA&M and C&A for its largest system:
Central Infrastructure Domain. OIG’s review of the supporting documentation
demonstrated a thorough performance and compliance with security controls for this
system. BBG has appointed a Privacy Officer to address the agency’s privacy
responsibilities. Further, BBG has developed an online training program for its
employees using a customized application. The training content for the online course is
developed by the Chief Information Security Officer (CISO) per statutory requirements
and is revised as needed to address current hot topics.

      While improvements have been made, OIG identified controls needing further
enhancements. Specifically, the Broadcasting Board of Governors should ensure that

       •	 a formal procedure for inventory identification and management is developed,
          documented, and implemented; and should include the process for identifying all
          changes to the inventory, including additions, retirements, and realignments of
          information systems;
       •	 all required POA&Ms are completed for all major information systems;
       •	 milestone completion dates and changes to milestone data are accurate in each
          POA&M;
       •	 C&A is performed and completed for all FISMA reportable information systems;
       •	 the security incident response plan is updated to include policy on safeguarding
          and responding to breaches related to personally identifiable information;

1
    44 U.S.C. § 3545 et seq.
       OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG   2
                                      UNCLASSIFIED 

                                       UNCLASSIFIED 



    •	 a configuration management policy is developed that incorporates controls found
       in National Institute of Standards and Technology Special Pulication 800-53,
       including configuration management controls 1 through 8;
    •	 complete and cirrent systems security plans for each of its systems are developed
       and maintained; and
    •	 written policies to staff are established and disseminated, consistent with the four
       phases of an incident response program described in NIST SP 800-61, on
       handling and reporting security incidents to include, at a minimum, common
       types of security incidents, breaches of personally identifiable information,
       incident reporting timeframes, guidance for prioritizing incidents, and required
       post-incident activity.

BACKGROUND

        Section 3545 of FISMA directs each agency to conduct an annual independent
evaluation of its information security program and practices. FISMA provides a
comprehensive framework for establishing and ensuring the effectiveness of operational,
technical, and management controls over information technology (IT) that supports
federal operations and assets. FISMA also provides a mechanism for improved oversight
of federal agency information security programs. OMB Memorandum M-08-21, 2 issued
July 14, 2008, contained guidance to assist OIGs with reporting FISMA performance
metrics.

        Section 3544(b) of FISMA requires that agencies develop, document, and
implement an agency-wide information security program. As part of that program,
section 3544(b)(6) requires that the CIO develop a process for planning, implementing,
evaluating, and documenting remedial action to address any deficiencies in the
information security policies, procedures, and practices of the agency. OMB
Memorandum M-04-25, 3 dated August 23, 2004, discusses the POA&M requirements for
federal agencies, which include identifying tasks that need to be accomplished, the
resources that are required to accomplish the elements of the POA&M, the milestones to
meet the task, and scheduled milestone completion dates. The memorandum includes a
spreadsheet to be used as a model to develop POA&Ms, including details such as the
specific identified weakness, point of contact, resources required, scheduled completion
date, milestones with attendant completion dates, changes in milestones, identification of
weakness, and status. National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-53 4 lists the security controls that system owners should implement
for their systems, depending on applicability to the system. The annual C&A process




2
  OMB Memorandum M-08-21, FY 2008 Reporting Instructions for the Federal Information Security 

Management Act and Agency Privacy Management, July 14, 2008. 

3
  OMB Memorandum M-04-25, Memorandum for Heads of Executive Department and Agencies, August 

23, 2004.

4
  NIST SP 800-53, Recommended Security Controls for Federal Information Systems, December 2006. 

      3 OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG
                                  UNCLASSIFIED 

                                         UNCLASSIFIED 



required by NIST SP 800-37 5 identifies security control weaknesses requiring
remediation.

SCOPE AND METHODOLOGY

        The OIG team consisted of staff with the OIG Office of Audits and the audit
services firm of Regis & Associates, PC. References to the work conducted for this
evaluation by OIG refer to this team. To perform the FISMA evaluation, OIG researched
federal laws, regulations, and guidance to identify relevant criteria for implementing and
managing information security programs. To identify prior issues and to follow up on
past recommendations, OIG also reviewed previous reports that evaluated BBG’s
information security and privacy programs. OIG reviewed documents provided by BBG
officials regarding systems inventory, C&A, POA&Ms, standard operating procedures,
process guides, and training. OIG’s analysis was based on information and
documentation for the period ending the third quarter of FY 2008 to allow sufficient time
for analysis and verification by the team. OIG included all 14 systems that BBG had
categorized as moderate and low-impact level systems as its subset sample for this year’s
FISMA review. BBG does not have any systems categorized as high-impact level. BBG,
however, has only completed the lifecycle process for one system. Therefore, OIG
performed its review of BBG’s inventory, contingency plans and annual testing, C&A,
POA&M, privacy, and configuration management processes using documentation for this
one system: the Central Infrastructure Domain system.

        OIG met with BBG officials to discuss roles and responsibilities for implementing
and managing information security programs for its networks. OIG met with the CISO to
gather updates on C&A, configuration management, the POA&M process, and security
awareness training. OIG held discussions with system owners to gather additional
information on BBG’s incident response procedures and BBG’s configuration
management process. In addition, OIG met with the Privacy Officer to gather
information on efforts to protect personally identifiable information (PII). OIG held
discussions with officials from OMB about expectations for government-wide
compliance with Federal Desktop Core Configuration (FDCC) requirements.

       The results of OIG’s review are discussed below. OIG’s Office of Audits
conducted its fieldwork for this review from June 20 to August 29, 2008. A draft of this
report was provided to BBG officials for their management review and comment, and all
applicable comments were considered and incorporated into this final report.

        In its October 10, 2008, formal response, BBG officials concurred with all of the
recommendations made by OIG in this report (see Appendix A). OIG will follow-up on
corrective actions taken, planned, or underway by BBG during its compliance analysis
reviews to determine resolution of each recommendation. Comments or questions about
the report may be directed to Karen Bell, Deputy Assistant Inspector General for Audits,
at bellk@state.gov or by telephone at 703-284-2604.
5
 NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal Information Systems,
May 2004.
     OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG          4
                                       UNCLASSIFIED 

                                          UNCLASSIFIED 



RESULTS

        OIG could not perform an assessment of the adequacy of BBG’s oversight and
evaluation for 13 of its 14 identified systems because BBG had not conducted all aspects
of a formal security program during FY 2008. Therefore, BBG could not provide the
supporting documentation that would have been available for this FISMA review. As a
result, BBG’s overall assessment is poor, with improvements needed in several areas.
OIG has, however, noted instances where improvements have been made since the FY
2007 review.

Inventory Management

       The management and identification of the information systems inventory items is
handled by staff within BBG’s International Bureau of Broadcasting (IBB), including
those systems that are defined as major information systems in accordance with Federal
Information Processing Standards (FIPS) Publication 199. 6 BBG captures and tracks its
inventory in one central repository, called the “Multi-user Information Security Forms
Inspection Tool.” This is a web-based inventory system, which also tracks
implementation of NIST 800-53 7 controls and details the C&A processes.

        OIG met with BBG officials to obtain an understanding of their methodology and
approach for defining BBG’s FISMA-reportable inventory. According to BBG
management the guidelines defined in NIST SP 800-37 8 are the processes it uses for
identifying and managing FISMA reportable major information systems and thus BBG
therefore did not develop its own written process. BBG management further explained
that the system owners and the four members of the CIO staff are in continuous (often
daily) communication with each other. For these reasons, BBG officials determined that
no additional written internal policy or procedures were necessary.

       Some of BBG’s major information systems ride on the general support systems
(GSS) 9 for internal communications. The BBG Central Infrastructure Domain, Central
Services Domain, Central Extranet Domain, Central BBG Domain, and Cuba
Broadcasting Headquarters Network (Cuba HQ) are all GSS. The Central Infrastructure
Domain provides the link and routing layers, as well as what BBG refers to as the
network “glue services” (e.g., Domain Naming System) for the entire agency internet
(BBG’s network of interconnected IP networks, not to be confused with the public

6
  FIPS Publication 199, Standards for Security Categorization of Federal Information and Information

Systems, February 2004. 

7
  NIST SP 800-53, revision 1, Recommended Security Controls for Federal Information Systems, 

December 2006. 

8
  NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal Information Systems, 

May 2004. 

9
  A general support system is an interconnected set of information resources under the same direct 

management control that share common functionality. It normally includes hardware, software, 

information, data, applications, communications, and people. Sources: NIST SP 800-53 and OMB Circular 

A-130, Appendix III.

      5 OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG

                                  UNCLASSIFIED 

                                       UNCLASSIFIED 



Internet). The four other general support systems use the services of the Central
Infrastructure Domain but are enumerated separately for the purposes of FISMA and
OMB Circular A-130 10 criteria for setting accreditation boundaries described in NIST SP
800-37.

        Currently, BBG has identified 14 major FISMA-reportable systems that comprise
ten agency and four contractor-owned and/or operated major information systems. These
ten BBG-owned major information systems include the following: the five GSS systems
previously listed, the Integrated Digital Audio Production System (IDAPS), the Video
Production System, the Master Control Automation System, the Cuba Broadcasting
Public Internet Website, and Security Credentialing System. The four contractor-owned
and/or operated major information systems include the following: the Public Internet
Website, the Public Internet Media Streaming Site, the BBG Public Internet Mail
Distribution Lists, and the VOA Public Internet Mail Distribution Lists.

        Based on information from BBG management, OIG determined that BBG’s
methodology of identifying major information systems in accordance with NIST SP 800-
37 is a reasonable starting point; however, its process is not documented to formalize and
describe roles and responsibilities. A documented inventory process will enable BBG to
ensure a continuous process is in place with adequate management oversight.

Recommendation 1: The Broadcasting Board of Governors should develop, document,
and implement a formal procedure for inventory identification and management. This
procedure should include the process for identifying all changes to the inventory,
including additions, retirements, and realignments of information systems.

Plan of Action and Milestones Process

        As reported last year and again for FY 2008, BBG has not developed or
implemented formal written processes, policies, or procedures to sufficiently address risk
management as part of its POA&M program. BBG officials stated that doing so would
not necessarily contribute to protecting their information systems, and that the existence
of such policies is not required by statute. OIG reviewed applicable statutes and
regulations and agreed that BBG was not technically required to develop and implement
written processes, policies, and procedures. However, OIG’s interpretation of the
applicable statutes and regulations places the onus on BBG to document and formalize its
POA&M process in order to meet the intent of relevant OMB and NIST guidance. 11 This
guidance states that agencies should use the POA&M process as a management tool for
identifying and tracking remedial actions. According to OMB Memorandum M-04-25,
the POA&M process is designed to resolve IT security control weaknesses with
prioritization to ensure vulnerabilities are addressed in a timely and cost-effective
manner. Without an effective POA&M process, security control weaknesses may result


10
  OMB Circular A-130, Management of Federal Information Resources, November 28, 2000. 

11
  NIST SP 800-100, Information Security Handbook: A Guide for Managers, October 2006, and NIST SP 

800-37. 

     OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG     6
                                     UNCLASSIFIED 

                                        UNCLASSIFIED 



in the unauthorized access, use, disruption, disclosure, modification, or destruction of
information.

        BBG’s POA&M process was not fully implemented for FY 2008. Specifically,
BBG had completed a POA&M for only one of its reported 14 systems, the Central
Infrastructure Domain system. The POA&M reflected action items needed to address 41
security control categories mandated by OMB and NIST guidance. 12 Agencies
categorize their systems according to FIPS 199 standards to determine which NIST SP
800-53 controls are required.

       OIG included all 14 reported systems as part of its subset sample for performing
an analysis of BBG’s POA&M process. Although OIG cannot draw conclusions about
the universe of BBG systems based on the sole POA&M BBG completed in FY 2008, it
can summarize its review results for the available POA&M: the Central Infrastructure
Domain, a GSS which is connected to the other reported systems. The POA&M
addressed all known security weaknesses for the Central Infrastructure Domain system
through testing the security-control categories. The POA&M included OIG findings
where applicable, which were prioritized for timely and appropriate measures. However,
BBG has not addressed known weaknesses for the remaining 13 systems. During the FY
2007 FISMA review, BBG provided OIG with 13 POA&Ms, which OIG reviewed at that
time. For the current year’s review, BBG did not provide POA&Ms for 13 systems
because officials stated that they were outdated and would change based upon the newly
mandated FDCC requirements. OIG found that BBG’s CIO centrally tracks the POA&M
that BBG developed for the one system and reviewed it on a regular basis.

        OIG discussed the Central Infrastructure Domain POA&M with the BBG CISO
and other BBG officials. OIG compared it with the POA&M for the same system
reviewed during the prior year and found that the current POA&M was more complete
and contained detailed information for more action items. 13 The POA&M from the prior
year, while listing many more action items, did not include detailed information for each
action item, such as scheduled completion dates, milestones and completion dates,
milestone changes, and resources required. Both POA&Ms listed the status of action
items as ongoing and identified whether the items had been identified during a Chief
Financial Officer audit or other external review. The current POA&M was well written
and closely followed the guidance issued in OMB Memorandum M-08-21. 14 The
POA&M addressed weaknesses in 41 security control categories from NIST SP 800-53.
In addition, for the most part, the POA&M included information for points of contact,
monetary resources required to complete POA&M action items, scheduled completion
dates, milestones and completion dates, milestone changes, how the weakness was
identified, and its status. The plan was only remiss in that some of the milestone

12
   FISMA directed NIST to develop standards to categorize all information and systems, which NIST

published in Federal Information Processing Standards 199. OMB reiterated this in its guidance, 

Memorandum M-08-21, dated July 14, 2008. 

13
   The current POA&M included 41 NIST SP-800-53 security controls, whereas the POA&M from the 

prior year assessed only 32, but included much more detailed information.

14
   OMB Memorandum M-08-21. 

      7 OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG

                                  UNCLASSIFIED 

                                     UNCLASSIFIED 



completion dates and milestone changes data were incomplete. OIG advised BBG
officials of these omissions and encouraged them to consistently include such
information so as to better manage the POA&M process in the future.

Recommendation 2: The Broadcasting Board of Governors should ensure that all
required plans of action and milestones are completed for all major information systems.

Recommendation 3: The Broadcasting Board of Governors should ensure that
milestone completion dates and changes to milestone data are accurate in each plan of
action and milestones.

Certification and Accreditation

        Significant improvements are needed for the C&A process, in which OIG
concludes BBG is currently failing. Each of the 14 reported systems were due for C&A
during FY 2008; however, BBG had completed C&A for only one system: Central
Infrastructure Domain. According to the CISO, the other 13 systems did not undergo the
required C&A because of limited resources. As such, BBG management focused their
time and attention to their largest major information system, the Central Infrastructure
Domain.
        Standards and guidance for performing C&A is contained within NIST SP 800-37
and NIST SP 800-53, revision 1. As stated within the guidance, security certification and
accreditation are closely related and, at the same time distinct, activities. Officials must
be able to determine the risk to operations, assets, or individuals and the acceptability of
such risk given the mission or business needs of their agencies. Officials must weigh the
appropriate factors and decide to either accept or reject the risk to their respective
agencies. Security certification supports security accreditation by providing authorizing
officials with information necessary to make credible, risk-based decisions about whether
to place new information systems into operation or to continue using the current systems.
Security accreditation includes the acceptance and management of risk—the risk to
agency operations, agency assets, or individuals that results from the operation of an
information system.

        OIG reviewed the one completed C&A package for the Central Infrastructure
Domain to identify, certify, and accredit security controls. With two apparent exceptions,
OIG found the C&A package to be thorough and complete in accordance with standards.
The package, however, seemed to be missing the privacy impact assessment (PIA) and
the certification test plan. In follow-up meetings with BBG officials, however, the OIG
learned that the PIA was not required because the system did not collect, maintain, or
share PII, while the requirement for the certification test plan had been fully satisfied
with an annual test performed in FY 2008.

       Annual testing for the Central Infrastructure Domain system security controls was
completed during FY 2008 and resulted in satisfactory results except for five sampled
controls. The NIST SP 800-53 security controls that failed are as follows: Access
Controls AC-04 and AC–07 that relate to Information Flow Enforcement and

    OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG
 8
                                   UNCLASSIFIED 

                                     UNCLASSIFIED 



Unsuccessful Login Attempts, respectively; System and Communication Protection
controls SC–04 and SC-07 as they relate to sharing of Information Remnants and
Boundary Protection, respectively; and control IA-2 – Identification and Authentication
as it relates to User Identification and Authentication. In OIG’s estimation, these
exceptions are minimal and do not affect the overall results of the annual test, given that
other access, identification, authorization, system, and communication-protection
controls were tested successfully. The Contingency Plan for this system was also
successfully tested and updated during FY 2008.

Recommendation 4: The Broadcasting Board of Governors should conduct certification
and accreditation testing on the remaining 13 major information systems and bring these
systems into compliance with statutory requirements.

Privacy

       BBG has made progress since last year in addressing its privacy responsibilities
by assigning a Privacy Officer, issuing some of the required privacy policies, and
performing PIAs for one of its information systems. BBG also improved posting Privacy
Act information on its website.

        Federal privacy guidance is described in Section 208 of the E-Government Act of
2002, OMB Memorandum M-03-22, Guidance for Implementing the Privacy Provisions
of the E-Government Act of 2002, and OMB Memorandum M-07-16, Safeguarding
Against and Responding to the Breach of Personally Identifiable Information. Per the E-
Government Act of 2002, agencies are required to conduct PIAs for electronic
information systems and information collection and make the assessments publicly
available. Further, the agency must post privacy policies on agency websites and
translate privacy policies into a standardized machine-readable format. OMB
Memorandum M-03-22 provides additional guidance to the agencies and directs them to
conduct reviews of how information about individuals is handled within agencies when
they use electronic means to collect new information or when agencies develop or buy
new systems to handle collections of PII. OMB Memorandum M-07-16 reemphasizes the
responsibilities under existing law, executive orders, regulations, and policies to assist
agencies to appropriately safeguard PII and to train employees about their responsibilities in
this area. Threshold analyses are used as a good management tool for each agency’s
privacy initiatives.

         BBG updated its website to include internet privacy policy and reports to address
OMB Memorandum M-03-22 requirements. The BBG Internet Privacy Policy webpage
states that the agency collects no personal information when the public visits the website
unless the public chooses to provide that information voluntarily. BBG also added a
Privacy Reports webpage, which includes links to its System of Records Notice and to
the PIA for the Momentum Financials System, which was prepared by BBG because this
is its outsourced financial management system and it contained contractor privacy
information.


     9 OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG

                                 UNCLASSIFIED 

                                     UNCLASSIFIED 



       BBG also made progress in implementing the provisions of OMB Memorandum
M-07-16 by issuing four policies and two implementation plans. The four policies are as
follows: (1) privacy awareness training, (2) privacy breach notification, (3) BBG rules of
behavior for safeguarding PII, and (4) PIA. The implementation plans address (1)
eliminating unnecessary use of social security numbers and (2) reviewing and reducing
the volume of PII. BBG officials did not indicate when the implementation plans will be
disseminated to staff.

        OMB Memorandum M-07-16 also requires each agency to develop and
implement a breach notification policy within 120 days of its issue date of May 22, 2007.
BBG did not issue its Privacy Breach Notification Policy until July 14, 2008, and it still
has not updated its Information Security Incident Response Plan to reference the new
policy.

       BBG completed privacy threshold analyses for five of its 14 information systems:
the Central Infrastructure Domain; the Central BBG Domain, the Central Extranet
Domain, the IDAPS Audio Production System, and the Video Production System. The
analyses concluded that PIAs were not required for the five systems. According to
BBG’s Senior Agency Official for Privacy, BBG did not perform threshold analyses or
PIAs on the remaining systems because the systems were not newly acquired or modified
during the year, as provided for by OMB Memorandum M-03-22.

Recommendation 5: The Broadcasting Board of Governors should update its
Information Security Incident Response Plan to reflect the Privacy Breach Notification
Policy with regard to safeguarding against and responding to personally identifiable
information breaches per Office of Management and Budget Memorandum M-07-16.

Configuration Management

        BBG has not issued an adequate configuration management (CM) policy. CM
controls provide reasonable assurance that changes to information system resources are
authorized and systems are configured and operated securely and as intended. This
includes the following: policies, plans, and procedures; current configuration
identification information; proper authorization, testing, approval, and tracking of all
configuration changes; routine monitoring of the configuration; and software updates on
a timely basis to protect against known vulnerabilities.

        In FY 2008, all 14 of BBG’s systems were required to have a C&A, but only one
was completed: the Central Infrastructure Domain. OIG selected this system for review
and applied NIST 800-53, revision 1, standards to determine whether BBG’s
documentation was in compliance. BBG provided OIG with its IT Change Management
Policy as evidence of an agency-wide security configuration management policy. While
the Change Management Policy incorporates several key components of CM standards, it
lacks others such as common security configuration procedures for all types of systems
and workstations and detailed change control procedures.


    OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG
 10
                                   UNCLASSIFIED 

                                      UNCLASSIFIED 



Recommendation 6: The Broadcasting Board of Governors should develop a
configuration management policy that incorporates controls found in National Institute of
Standards and Technology Special Publication 800-53, including configuration
management controls 1 through 8.

Federal Desktop Core Configuration (FDCC):

        OMB Memorandum M-07-11 15 requires agencies to adopt FDCC standards.
Specifically, these standards require agencies to adopt standardized security
configurations for desktops when using Microsoft Windows XP and Vista operating
systems. BBG’s workstations currently use the Windows 2000 operating system;
therefore, this requirement currently is not applicable. BBG management has indicated it
will be transitioning to Windows XP within the next year and, at that time, it will be
implementing FDCC compliance requirements.

Incident Reporting

        BBG’s security incident reporting program requires further improvement.
Specifically, BBG has not updated its information security incident response plan to
identify common types of security events that require reporting. It also does not include
information on potential PII breaches, guidance on prioritizing security events, and
dissemination of incident reporting procedures.

        FISMA requires agencies to establish procedures for detecting, reporting, and
responding to security incidents. NIST SP 800-61 provides guidance to agencies on
establishing an effective incident response program. The guidance focuses on four
phases: (1) preparation, (2) detection and analysis, (3) containment/eradication/recovery,
and (4) post-incident activity. Because events can occur in numerous ways, it is
important for officials to develop comprehensive procedures with step-by-step
instructions for handing every event, especially common types of events. OMB requires
agencies to develop system security plans (SSP). 16 The SSP is an overview of the
security requirements of the system and describes the controls in place—or planned—to
meet those requirements. The plan also delineates the responsibilities and expected
behavior for all individuals who access the system. The system security is organized into
three general classes of security controls: management, operational, and technical.
Incident reporting is part of the operational security controls.

        OIG identified several areas that require improvement by BBG. For example,
BBG stated in its current information security incident response plan, dated June 7, 2004,
that system owners or designated individuals responsible for information security are to
be identified in the SSP and that system users should report any security incident through
reporting channels established by the system owners or designated individuals. However,
based on its review, OIG found that only one of the 14 systems has an SSP. The

15
   OMB Memorandum M-07-11, Implementation of Commonly Accepted Security Configuration for 

Windows Operating Systems, March 2007. 

16
   OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources. 

     11 OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG

                                  UNCLASSIFIED 

                                          UNCLASSIFIED 



information security incident response plan has not been updated and still states that the
identity of system owners is found in the SSP. The identity of system owners is located
on BBG’s Intranet website, yet the Intranet address has not been included in the incident
response plan. Further, BBG’s information security incident response plan states that
system owners or designated individuals should exercise good judgment and common
sense when evaluating and reporting security incidents, but it does not provide examples
to assist in making these determinations.

        To ensure proper handling and reporting of security events throughout the agency,
OIG believes that BBG should provide more information to its system owners and
designated individuals, including common types of security events, potential PII
breaches, reporting timeframes, and guidance for prioritizing events. In addition, the
contact information pertaining to internal and external groups, such as human resources,
legal, other incident response teams, and law enforcement entities, should be included in
the security incident response plan to facilitate communication. For example, the
information security incident response plan states that if an incident involves deliberate
activity by a user, one or more additional reports should be filed with the Offices of
Personnel, Contracts, or Security. However, specific contact information is not provided
in the information security incident reporting plan. By having information readily
available, the amount of time spent by staff locating pertinent information may be
reduced, thereby ensuring sufficient time for analyzing and properly reporting relevant
security events.

        Additionally, BBG’s information security incident response plan does not address
post-incident procedures, which involves identifying lessons learned, assessing the
effectiveness of the incident reporting process, and identifying improvements in security
controls and practices. For example, BBG had a security incident on July 22, 2008, that
involved malicious code injected in its server database. The incident was discovered by
employees and reported to a member of the Office of Engineering (E/II) technical staff.
The incident was escalated through the reporting channels in E/II to the technical services
team leader and then to the head E/II, who reported the incident via email to the CISO.
The CISO determined that the incident should have been referred to the United States
Computer Emergency Readiness Team (US-CERT) 17 because it met the US-CERT
federal agency reporting guidelines for a category 3 incident involving malicious code.
The incident 18 was forwarded by the CISO to US-CERT on July 22, 2008, and the code
on the affected server was corrected by the appropriate officials.

         Further, actions taken by BBG officials for this security incident contained the
first three phases of the incident response process; however, the fourth phase of the
process—post incident procedures—was not fully performed. The fourth phase requires

17
   The US-CERT is a partnership between the Department of Homeland Security and the public and private
sectors to protect the nation's Internet infrastructure. US-CERT coordinates defense against and responses
to cyber attacks across the nation. US-CERT is responsible for 1) analyzing and reducing cyber threats and
vulnerabilities, 2) disseminating cyber threat warning information, and 3) coordinating incident response
activities.
18
   Report No. 2008-US-CERTv33F1P7D.
     OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG           12
                                        UNCLASSIFIED 

                                     UNCLASSIFIED 



that BBG develop lessons learned, assess the incident reporting process, and improve
security controls as needed. Lessons learned and other data gathered from each incident
can be used to identify systemic security weaknesses and deficiencies in policies and
procedures. Although the malicious code was eliminated from the server and officials are
currently rewriting code for other vulnerable coding scripts, BBG officials did not
develop information regarding improving the security controls that would prevent either
intentional or accidental changes to code. Lessons learned and other data gathered from
each incident can be used to identify systemic security weaknesses and deficiencies in
policies and procedures.

        During its review, OIG received mixed responses from system owners about their
understanding of the incident reporting process, as well as their grasp of their individual
responsibility to report information security incidents. For example, several system
owners indicated that all incident reporting procedures had been consolidated and
published on the BBG Intranet website. However, another system owner informed OIG
that there are no written procedures regarding incident reporting for the system but that
users inform the system owner of any known problems. A third system owner stated that
incident reporting requirements are separated within two procedures that differ for
unprivileged and privileged users. Unprivileged users report incidents to the help desk,
while privileged users report incidents to their system managers. OIG believes that
inconsistencies in reporting and handling security incidents throughout the agency could
hamper BBG’s ability to effectively manage its information systems.

Recommendation 7: The Broadcasting Board of Governors should develop and
maintain complete and current systems security plans for each of its systems.

Recommendation 8: The Broadcasting Board of Governors should establish and
disseminate written policies—consistent with the four phases of an incident response
program described in NIST SP 800-61—to staff that explain the proper handling and
reporting of security incidents. This should include, at a minimum, common types of
security incidents, breaches of personally identifiable information, incident reporting
timeframes, guidance for prioritizing incidents, and required post-incident procedures.

Security Awareness Training, Peer-to-Peer File Sharing

        BBG has made some progress in administering security awareness training to its
employees. This includes developing an online training program for its employees using
a customized application named “Moodle.” The training content for the online computer
security course is developed by the CISO per statutory requirements, and it is revised as
needed to address hot topics. The current training content includes discussions on
computer risks and vulnerabilities, disclosure of personal information, malicious
software, and the protection of sensitive information. However, policies regarding the
use of collaborative web technologies and peer-to-peer file sharing were not part of the
awareness training provided to employees as required by OMB Memorandum M-08-21.
Privacy matters are covered separately within another training course developed by
BBG’s Privacy Officer. The privacy training material covers system users’

    13 OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG

                                 UNCLASSIFIED 

                                     UNCLASSIFIED 



responsibilities, general privacy principles, and regulatory guidance. As of August 2008,
1,757 (approximately 51 percent) of 3,460 BBG employees had received certificates for
the online awareness courses—computer security and privacy.

        Security awareness training is being administered to BBG employees with system
access; however, BBG is not focusing on providing awareness, in any form, to those
without system access. Per OMB Memorandum M-08-21, each agency should be
providing security awareness to all users—those with and without system access—as part
of the agency’s training efforts. BBG is not complying with this requirement, and it did
not have any plans to train non-system employees during the course of the FISMA
review. Further, BBG officials are not reviewing training records for duplication of
entries. In documentation received, OIG noticed in several cases where the same
employee was reported more than once on the training records for the online security
awareness training course. OIG brought this recordkeeping issue to the attention of BBG
officials, who indicated that steps will be put in place to address this matter.




    OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG
 14
                                   UNCLASSIFIED 

                                 UNCLASSIFIED 





15 OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG

                             UNCLASSIFIED
                                     UNCLASSIFIED 



RECOMMENDATIONS

Recommendation 1: The Broadcasting Board of Governors should develop, document,
and implement a formal procedure for inventory identification and management. This
procedure should include the process for identifying all changes to the inventory,
including additions, retirements, and realignments of information systems.

Recommendation 2: The Broadcasting Board of Governors should ensure that all
required plans of action and milestones are completed for all major information systems.

Recommendation 3: The Broadcasting Board of Governors should ensure that
milestone completion dates and changes to milestone data are accurate in each plan of
action and milestones.

Recommendation 4: The Broadcasting Board of Governors should conduct certification
and accreditation testing on the remaining 13 major information systems and bring these
systems into compliance with statutory requirements.

Recommendation 5: The Broadcasting Board of Governors should update its
Information Security Incident Response Plan to reflect the Privacy Breach Notification
Policy with regard to safeguarding against and responding to personally identifiable
information breaches per Office of Management and Budget Memorandum M-07-16.

Recommendation 6: The Broadcasting Board of Governors should develop a
configuration management policy that incorporates controls found in National Institute of
Standards and Technology Special Publication 800-53, including configuration
management controls 1 through 8.

Recommendation 7: The Broadcasting Board of Governors should develop and
maintain complete and current systems security plans for each of its systems.

Recommendation 8: The Broadcasting Board of Governors should establish and
disseminate written policies—consistent with the four phases of an incident response
program described in NIST SP 800-61—to staff that explain the proper handling and
reporting of security incidents. This should include, at a minimum, common types of
security incidents, breaches of personally identifiable information, incident reporting
timeframes, guidance for prioritizing incidents, and required post-incident procedures.




    OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG
 16
                                   UNCLASSIFIED 

                                            UNCLASSIFIED


                 APPENDIX A – MANAGEMENT RESPONSE



                 BROADCASTING BOARD OF GOVERNORS
                 UNTfED STAlES OF AMERICA
                 UNITED




                                                         October 10, 2008



            Mr. Mark Duda
            Assistant Inspector General for Audits
            Office of Inspector General
            U.S. Department of State

                 Me. Duda:
            Dear Mr.

            This is in response to your memorandwn
                                        memorandum dated St:ptember 29, 2008, rCg<:lI"ding
                                                                               rt:g;uding the OffiIX
                                                                                              Office
            ofInspector
            of Inspector General Fiscal Year 2008 Federal Information Security Management Act
            (FISMA) Reporting Template for the Broadcasting Board of Governors (BBG(BBG). ).

            We appreciate the opportunity
                               opporttmity to respond 10
                                                      to the Office of In spector Genera
                                                                       Inspector  Generall 's FISMA
            evaluation of the Broadcasting Board ofGov   emors ' ( BBG) inf
                                                  ofGovemors                 ormation security program
                                                                          information
                practices..
            and practices

            We concur with th thee eight recommendations in the report. If yo
                                                                           youu ha ve any questions,
                                                                                 have
            please feel free to contact Ms. Renee Tyrance-Gauff, International Broadcasting Bureau
            (lBB)
            (IBB) Chief o f Analysis and Administration Division, at (202) 203-4664         Me. Vince
                                                                              203-4664,, or Mr.
            Nowicki,, IBB Direc
            Nowicki         Director
                                   tor for Eng ineering & Technical Services, at (202) 382-7300.
                                           Engineering

                                                         S'S'"?J
                                                             ;/Jy,Y'
                                                         ;:,lfr1f--
                                                         t.tfr1f--
                                                         Executive Director
                                                                   Di.re<::tor




3JO
3."JJ INUEI'I!ND£!IiCEAVENUE,
      INDEI'ENDENCEAVENUE, SW   ROOM 3360
                                     l360         RWIDING
                                            COHEN RmInING     WASHJNGlDN, OC
                                                              WASJ{lNG"roN, DC 00237
                                                                               20237   (202) 203-f5oI5
                                                                                             2Q3..6I5




 17 OIG Report No. AUD/IT‐08‐37 Review of the Information Security Program at the BBG
                              UNCLASSIFIED
:[G   ~r:!IIo.   .'.:C --:- ~]6· r ~ro.w Jf :::Jot .n.'lrr=DII ~l ?~¥..m ir"::l. aBC
                             :" ..0.... _ 11' -j;
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
